J

l

'*$ •

No. 19-983
!

IN THE SUPREME COURT OF THE UNITED STATES
COLLEEN REILLY and BECKY BITER,
Petitioners
v.
CITY OF HARRISBURG, HARRISBURG CITY COUNCIL, and ERIC
PAPENFUSE, in his official capacity as Mayor of Harrisburg,
Respondents
CERTIFICATION OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the document
contains 2,901 words, excluding those parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 9, 2020.

RogerJL Gannam

